<html>
<title> - REAUTHORIZATION OF THE HEAD START PROGRAM</title>
<body><pre>[Senate Hearing 108-345]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-345

               REAUTHORIZATION OF THE HEAD START PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

  THE REAUTHORIZATION OF THE HEAD START PROGRAM SERVING INDIAN COUNTRY

                               __________

                           SEPTEMBER 25, 2003
                             WASHINGTON, DC



89-672              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Belleau, Ann, National Indian Head Start Directors 
      Association, board member and director, Inter-Tribal 
      Council of Michigan Inc. Head Start/Early Start, Sault Ste. 
      Marie, MI..................................................    18
    Gomez, Henrietta, Immersion Instructor, Taos Pueblo Head 
      Start program, Taos, NM....................................     9
    Guillory, Consuelo, National Indian Head Start Directors 
      Association, board member and director, Nez Perce Tribe 
      Head Start program, Lapwai, ID.............................    12
    Hill, Windy M., associate commissioner, Head Start Bureau, 
      Administration for children and Families, Department of 
      Health and Human Services, Washington, DC..................     1
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Laughter, Roy, Navajo Nation Government Services Committee, 
      Navajo Nation, Phoenix, AZ.................................    22
    Morgan, Lee, contract compliance officer, Navajo Nation, 
      Phoenix, AZ................................................    24
    Sanchez, Gilbert, executive director, Department of 
      Education, Pueblo of Laguna, NM............................    18
    Turney, Lee, National Indian Head Start Directors 
      Association, board member and director, Leech Lake Band of 
      Ojibwe Head Start program, Cass Lake MN....................    16
    Verdugo, Mavany, president, National Indian Head Start 
      Directors Association, Valley Center, CA...................     6

                                Appendix

Prepared statements:
    Belleau, Ann.................................................    32
    Goetz, Meg, director, Congressional Relations, American 
      Indian Higher Education Consortium.........................    36
    Gomez, Henrietta (with attachment)...........................    40
    Guillory, Consuelo (with attachment).........................    49
    Hill, Windy M................................................    27
    Laughter, Roy (with attachment)..............................    82
    Turney, Lee (with attachment)................................    94
    Sanchez, Gilbert.............................................   101
    Verdugo, Mavany (with attachment)............................   110

 
               REAUTHORIZATION OF THE HEAD START PROGRAM

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
562, Dirksen Senate Building, Hon. Daniel K. Inouye (vice 
chairman of the committee) presiding.
    Present: Senator Inouye.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The Committee on Indian Affairs meets this 
morning to receive testimony on the reauthorization of the Head 
Start program and particularly the programs that serve Indian 
country.
    For millions of children nationwide, the Head Start program 
has proven to be one of the most beneficial aspects of their 
beginnings of life. For the children of Indian country and 
their parents, the Head Start program may well make a critical 
difference throughout their entire lives.
    So it is important that the Head Start program have the 
flexibility to address the unique needs in Indian country, 
including the ability to allow instruction in the child's 
native language.
    We have witnesses today who are the experts in Indian Head 
Start programs. So, without further ado, I will call upon the 
first panel. We have on the first panel the associate 
commissioner of the Head Start Bureau, Administration for 
Children and Families, Department of Health and Human Services, 
Windy Hill.

STATEMENT OF WINDY M. HILL, ASSOCIATE COMMISSIONER, HEAD START 
BUREAU, ADMINISTRATION FOR CHILDREN AND FAMILIES, DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Ms. Hill. Good morning, Mr. Chairman.
    Senator Inouye. Please proceed. Welcome.
    Ms. Hill. Mr. Chairman and members of the committee, I 
appreciate this opportunity to testify before you today on the 
President's plan to strengthen Head Start, including those 
programs serving American Indian and Alaska Native children and 
families. I am here not only as the Associate Commissioner of 
Head Start, but also as a former Head Start child and the 
mother of a Head Start child who is now an accomplished high 
school student.
    I would like to focus my time today on the President's 
goals for improving Head Start. I also want to share some 
highlights and insights into Head Start services and operations 
within American Indian and Alaska Native programs, AIAN Head 
Start, that I know are of special interest to this committee.
    Let me say at the outset that the President remains 
committed to maintaining the current Federal-to-local 
relationship with AIAN Head Start programs and working with 
these programs to address the unique challenges they face.
    As you know, Head Start was launched in 1965 as part of a 
bold, big idea that children should not be disadvantaged in 
their education because of the circumstances of their families. 
However, recent research shows that, although Head Start 
children make progress in areas of school readiness during the 
Head Start year, they continue to lag behind their more 
economically-advantaged peers. Consequently, the President and 
Secretary Thompson sent the Head Start Bureau a clear message: 
More needs to be done to strengthen the educational outcomes 
for children.
    As part of the President's ``Good Start, Grow Smart 
Initiative,'' we were directed to increase the knowledge and 
skills of Head Start teachers in the areas of pre-school 
language and literacy and to create and maintain a national 
reporting system that will help measure children's progress in 
mastering the skills necessary to enter school ready to learn.
    In response, the Head Start Bureau has already undertaken a 
number of efforts aimed at bolstering the school readiness of 
Head Start children, and representatives from AIAN programs 
have been part of this effort.
    The administration's efforts to improve the quality of Head 
Start services for all children continue with the President's 
proposal for reauthorization of Head Start. Let me be clear 
that the President is not proposing to block grant Head Start 
funding to States. The President's proposal does not allow 
States who may qualify for participation in a State option to 
do away with the comprehensive services currently available 
through Head Start and makes clear that the Federal Government 
will not cease or relinquish its oversight responsibility for 
the Head Start program.
    Under the President's proposal, AIAN Head Start programs 
will continue to be funded directly by the Federal Government. 
Governed by relevant laws and regulations, each tribe will 
design a program that works, one that is sensitive to the 
culture and history of the families, one that respects the rich 
traditions of the tribe, and that recognizes the uniqueness of 
language and customs.
    The Head Start program has provided Head Start services to 
Indian tribes since 1965, when the Department funded 43 
grantees in 14 States. We are currently funding 165 grantees in 
26 States to provide Head Start services to 23,837 children, 
2,532 of whom are served in our early Head Start program. There 
are 5,587 staff working in AIAN Head Start programs, 80 percent 
of whom are Native Americans.
    In fiscal year 2004 there will be increased efforts made to 
assure that Head Start programs are achieving their primary 
purpose of promoting school readiness, that all children, 
including all American Indian and Alaska Native children, leave 
Head Start with the cognitive, emotional, and social skills 
they will need to be successful in school.
    We have tried to respond to several unique needs by making 
available funding that permits Indian programs to reach all, or 
a substantial part, of their Head Start-eligible families. Over 
the past several years we have worked in partnership with the 
Indian Health Service, IHS agency, addressing the many health 
and safety concerns of Head Start programs, concerns that are 
often exacerbated by environmental factors beyond the control 
of a local Head Start program or the community in which the 
program is located.
    In partnership with the IHS, we are currently finalizing a 
report to Congress on the overall status and condition of 
facilities occupied by AIAN Head Start programs. My formal 
statement provides some of the overall findings.
    We have invested over $25 million in the last three years 
for renovations and construction to improve classroom and 
playground, as well as work and meeting space, for AIAN Head 
Start programs. We are also investing in new Head Start buses 
for AIAN programs at a rate that is twice the national average.
    We share these investments with you not to say that our job 
is complete, but to acknowledge our awareness and intent to 
address the needs of AIAN Head Start. We are committed to doing 
that.
    We look forward to working with this committee and with the 
Congress to continue to address these and other challenges. 
Together we must do all we can to bring to fruition the goals 
and dreams of our Nation's ``first family.''
    Thank you, and I will be happy to answer any questions you 
may have.
    [Prepared statement of Ms. Hill appears in appendix.]
    Senator Inouye. All right, thank you very much, Ms. Hill.
    I gather that the administration is proposing to create and 
manage a national reporting system, and I am just wondering 
what sort of testing tools are you going to have and, if so, 
are they culturally-sensitive or are they strictly for those 
who speak English?
    Ms. Hill. We have begun this process of developing the 
national reporting system with a great awareness that in some 
parts of our country there are multiple languages in our Head 
Start classrooms, as many as 50 to 58 different languages. We 
know that the national reporting system will give us for the 
first time the ability to assess the cognitive development of 
children, much like we assess whether or not children have 
immunizations and whether parents are receiving the supportive 
services that they need.
    We approach this with a real sense that it will take time 
to develop and implement a system that is responsive to all of 
the children in the program, but that we must start somewhere. 
So we have begun the process focusing primarily on children 
whose primary language is English or Spanish, recognizing that 
in the process of assessing skills or English, children who 
have not acquired English will not be assessed by an English 
assessment tool. It means that over time we will move to 
multiple languages, but at this point we are only capable of 
assessing children with those languages.
    Senator Inouye. In the meantime, those children who cannot 
be appropriately tested may have to suffer the consequences?
    Ms. Hill. No; absolutely not. Head Start is designed to 
address the individual needs of all children. The national 
reporting system gives us the ability to look across the 
country nationally and see how well programs are doing in 
meeting the cognitive needs of children, but at the same time 
local programs still maintain that responsibility to plan their 
program services around the individual needs of children.
    It means that children are assessed at three points in time 
in every program. They look at the beginning of the year to 
identify how and what services might need to be provided, 
including those that relate to the development of a child. They 
look again about mid-year to see how well they are doing and 
make whatever corrective modifications are necessary. Then at 
the end of the year they do a final assessment to see how well 
they achieved service delivery for every children. So no child 
will suffer because the national reporting system cannot assess 
in all languages.
    Senator Inouye. So your reporting programs will accommodate 
the language immersion Head Start programs?
    Ms. Hill. Absolutely.
    Senator Inouye. How does the administration plan to further 
the acquisition, retention, and preservation of Native 
languages through the Head Start program, or do you have any 
policy on that?
    Ms. Hill. Well, as you know, the Head Start program values, 
has a long history since its inception of valuing the culture 
and languages of the children which we serve. We know that we 
are serving children in south Texas whose primary language may 
be Spanish, children who are in Alaska whose native culture is 
Inupiat or Tlingit tribes, and that that is part of the Head 
Start experience and figuring out how to do it. So we do that 
very well, and we will continue to do that.
    The Department of Health and Human Services, through its 
ANA, Administration for Native American programs, makes 
available opportunities to support the immersion of language 
not only in Head Start, but also throughout tribal programs and 
other opportunities.
    We also have local programs who have done an excellent job 
of creating within their local infrastructure the support for 
the preservation of Native languages.
    Senator Inouye. As you may be aware, I represent a State of 
many islands. As a result, there are big islands and small 
islands. On some of the islands, it is hard to believe this, 
but there are no escalators, no elevators, no shopping malls. 
In fact, there are no huge-screen theaters.
    To take these children from one island to another, there is 
an additional cost of transportation. In the same way, there 
are many reservations that are hundreds of miles away from 
centers of activity.
    Is your program making accommodations for additional 
transportation costs?
    Ms. Hill. We have begun our process, and it is an ongoing 
process. As I mentioned in my short statement, the rate of 
investment in buses alone is twice the national average in Head 
Start, recognizing that many children are being transported 
over unpaved roads. We want them to be transported in a fashion 
that is as safe as possible, and the National Transportation 
Safety Board is giving us guidance on what that type of 
transportation should look like.
    So we continue, through quality improvement funds and one-
time funding opportunities, to provide local programs with the 
opportunity to apply for those funds, and as they are 
available, make those funds available in developing 
transportation systems that are safe for children.
    Senator Inouye. The funds are finally available?
    Ms. Hill. The funds have always been available in that one-
time funds are available at the end of each year. These are 
funds that, for example, in the implementation of a program, if 
the program starts late and dollars are unused, we use those 
funds to support broader needs such as the transportation 
needs. So those funds continue to be available on an annual 
basis.
    In addition to that, there is ongoing quality improvement 
funds. Now from 1999 to about 2001, there was about $80 million 
that went into the base of Head Start program funding to 
address quality improvement needs, and transportation would 
certainly be an area in which programs had an opportunity to 
use those dollars to support those needs.
    Senator Inouye. The Congress has requested the Department 
to submit a report on the progress being made in Indian and 
Alaskan villages. Do you have the report?
    Ms. Hill. The report is in the final stages of being 
complete and submitted through the clearance process for 
submission to Congress. In my long statement we did extract 
some findings of that report to share with the committee in 
anticipation of its release here.
    Senator Inouye. When do you anticipate completion of the 
report?
    Ms. Hill. I believe the report will be due and submitted 
the latter part of this year.
    Senator Inouye. So the committee will get a copy?
    Ms. Hill. Yes, sir.
    Senator Inouye. Thank you.
    There is also a requirement of consultation. What is the 
nature of consultation you have with Indian tribes?
    Ms. Hill. Well, as you know, the Department and the 
Secretary have revitalized a couple of interagency advisory 
groups and councils for that specific purpose.
    Commissioner Quanah Stamps, who heads up the Administration 
for Native American, ANA, Department, is the chair of that 
committee. Consultations for this year are being planned for 
December.
    In addition to that, our assistant secretary, Dr. Wade 
Horn, serves on the executive committee, advisory committee, 
and we are looking forward to the opportunity, to those 
consultations this year. In the interim, because we share one 
Department through our weekly and monthly staff meetings 
convened by our assistant secretary, we have the opportunity to 
have frequent dialogue across programs about services, and we 
use that also as a vehicle, in addition to required reporting.
    Senator Inouye. And you are satisfied with the progress 
being made?
    Ms. Hill. I am satisfied that we are all extremely 
committed to ensuring that that communication is effective and 
that it yields outcomes, better outcomes, for the children and 
families served by those programs.
    Senator Inouye. Ms. Hill, I thank you very much.
    Ms. Hill. Thank you.
    Senator Inouye. I think you are doing a good job.
    Ms. Hill. Thank you.
    Senator Inouye. In our next panel: the president of the 
National Indian Head Start Directors Association of California, 
Mavany Verdugo; the immersion instructor of the Taos Pueblo 
Head Start program of New Mexico, Henrietta Gomez; the National 
Head Start Directors Association board member and director of 
the Nez Perce Tribe Head Start program, Consuelo Guillory.
    Ladies, welcome, and may I call on Ms. Verdugo first.

 STATEMENT OF MAVANY VERDUGO, PRESIDENT, NATIONAL INDIAN HEAD 
START DIRECTORS ASSOCIATION, VALLEY CENTER, CA, ACCOMPANIED BY 
 HENRIETTA GOMEZ, IMMERSION INSTRUCTOR, TAOS PUEBLO HEAD START 
PROGRAM, TAOS, NM; AND CONSUELO GUILLORY, NATIONAL INDIAN HEAD 
  START DIRECTORS ASSOCIATION, BOARD MEMBER AND DIRECTOR, NEZ 
           PERCE TRIBE HEAD START PROGRAM, LAPWAI, ID

    Ms. Verdugo. Thank you. Vice Chairman Inouye and members of 
the committee, thank you for this opportunity to submit 
testimony on behalf of the National Indian Head Start Directors 
Association with regard to reauthorization of Head Start.
    We want to remember that in 1994 Senator Inouye was the 
first-ever-awarded our association's Child Advocate of the 
Year, and we just want to thank you for continuing to support 
our children.
    This testimony is about the miracle of Indian Head Start. 
Head Start is one of the truly great Federal success stories in 
Indian country. We urge the committee to support expansion of 
Head Start and not its reorganization.
    In the week prior to this hearing, our association sent out 
a brief e-mail asking programs to respond to the specific 
challenges that they face or obstacles that they have overcome 
in their work and things that would be just unique to Indian 
Head Start. We were really overwhelmed with the response. These 
testimonies and stories are attached, and we would really 
encourage you to read them.
    Our role as the National Indian Head Start Directors 
Association is as a national voice for our members in the 
United States. We have roughly 95 percent of all of the Indian 
programs as members, and we keep in communication.
    Some of our statistics: Of the 575 federally-recognized 
tribes, 216 participate in Head Start and Early Head Start. 
That is a funded enrollment of approximately 24,000 children. 
This number represents 2.9 percent of the total number of 
children nationwide served by Head Start. These programs employ 
approximately 6,000 individuals, and one-half of them are 
employees that are current or former Head Start parents, like 
myself.
    Among the recommended improvements to the Head Start Act 
are increasing the setaside for Indian Head Start. Currently, 
Indian Head Start programs receive a 2.9 percent set-aside of 
Head Start funds. This is really not sufficient to address the 
extraordinary range of unique challenges faced by tribes 
through the United States. This just supports a statutorily-
mandated increase in the setaside for Indian Head Start to 4 
percent.
    Other specific funding needs are:
    Increased funding for transportation services. Head Start 
funding for transportation does not adequately consider the 
geographic isolation of many rural tribal communities, and you 
will read about this in some of the stories that were 
submitted.
    Increased funding to support effective professional 
development; increased funding for training and technical 
assistance. Currently, there is a 2 percent setaside for 
training and technical assistance. We support a 3-percent set-
aside for T&TA
    Tribal programs should continue to receive their own T&TA 
dollars with the additional funds awarded to a national 
technical and training assistance system to support continued 
networking and development across all tribal grantees.
    We ask for increased funding for upgrading Head Start 
facilities to maintain quality standards. There is a great need 
for the renovation of existing facilities as well as a need for 
the construction of new facilities. Again, you will see this 
demonstrated in the stories.
    Expansion of Early Head Start programs, including an Early 
Head Start Indian set-aside--Ann Belleau will be giving you a 
more detailed story about this in her testimony.
    Flexibility in eligibility criteria. NIHSDA recommends that 
tribes be given greater flexibility to establish the criteria 
for eligibility in their Indian Head Start programs. This is 
not an effort to provide universal coverage, but is intended to 
ensure that each tribe can tailor its program to the unique 
cultural and economic circumstances of its community. 
Currently, there is no preference language for serving Indian 
children and eligibility requirements are unreasonably low and 
inconsistent with other Federal programs.
    We are asking for maintenance of a separate Indian Head 
Start region within the Head Start Bureau. We request that the 
Head Start Act specifically provide for a separate region for 
Indian Head Start. We support the continued separate provision 
of technical assistance for Indian Head Start.
    State and local programs do not have the capacity to 
develop and support this expertise. The American Indian/Alaska 
Native Program Branch has also developed knowledge and 
experience which enables it to respond more effectively to 
tribal programs, as well as to explain, advocate, and 
articulate the issues within the Federal Government.
    Formal consultation requirements for the Department of 
Health and Human Services: Tribal Head Start consultations must 
provide tribes and tribal Head Start grantees a forum that will 
allow greater opportunity for significant participation in the 
administration and operation of Head Start programs and greater 
opportunity to express their issues and concerns with existing 
or developing Federal policies, regulations, and other related 
directives that affect services in tribal communities.
    Enhanced but flexible degree requirements for staff with 
expanded distance learning opportunities, Connie is going to 
expound on this in her testimony.
    Culturally- and linguistically-appropriate testing: While 
the goals of the national reporting system are laudable, to 
measure children's language and literacy skills in order to 
track child outcomes and progress in educational achievement, 
culturally-skewed assessments will hurt both schools and 
children.
    Preservation of language and promotion of culturally-
relevant programs and research, Henrietta Gomez will be 
speaking about that in her testimony.
    Greater flexibility in cost sharing: Tribal communities 
affirm their responsibility to provide a share of in-kind or 
cash-match to support Head Start programs. However, it is a 
constant challenge for impoverished tribes with a small 
volunteer pool, limited third-party in-kind contributions, and 
their remote locations and low-value facilities to meet the 
cost-sharing requirements of the law.
    Undertaking of culturally-appropriate relevant research and 
evaluation, this will be covered by Lee Turney in his 
testimony.
    So, in conclusion, on behalf of the National Indian Head 
Start Directors Association, I would like to thank the 
committee for holding this hearing and listening to the views 
expressed today. Again, I would like to encourage you to read 
the stories from our programs that are out there on the front, 
because they are very compelling, to let you see the uniqueness 
of our Indian programs. Thank you.
    [Prepared statement of Ms. Verdugo appears in appendix.]
    Senator Inouye. First, may I assure you that we will read 
those stories.
    You have suggested that the Head Start program be 
increased. For example, at this moment you are receiving about 
3-percent of the Head Start funds. You are suggesting it be 
raised to 4. How many more children will that accommodate?
    Ms. Verdugo. I would like to get back to you with an exact 
number of how that would affect, but we do have many children 
who are unserved in our communities. This would enable us to 
get out and reach unserved communities.
    Senator Inouye. You are also suggesting that families that 
qualify under WIC be permitted to send their children. How many 
more children would that add to the program?
    Ms. Verdugo. Again, I would have to get back to you on an 
exact number, but I would say that USDA has proposed rules to 
go from 125 to 185 percent in their eligibility criteria. If we 
were able to adopt that, it would be a uniform eligibility 
criteria for Federal programs, and it would help a lot of 
families that just barely go over that eligibility criteria, 
because TANF is working, and they are going out to work, but 
they lament that it was much easier when they were on TANF to 
be able to qualify for things. So it is not that they are 
exceeding the limit in a large way.
    Senator Inouye. With your background and experience, are 
you satisfied that the program has had some good results?
    Ms. Verdugo. Absolutely. I can speak personally as to how 
Head Start has helped me and my family, and you will see it in 
stories. It helps children as we follow them, as they 
transition into school, in a broad area of ways. We are really 
increasing their academic success. You will see that in the 
other testimony that comes through. We can firmly stand behind 
the program.
    Senator Inouye. Thank you very much.
    Ms. Verdugo. Yes.
    Senator Inouye. Ms. Gomez.

STATEMENT OF HENRIETTA GOMEZ, IMMERSION INSTRUCTOR, TAOS PUEBLO 
                  HEAD START PROGRAM, TAOS, NM

    Ms. Gomez. [Speaks briefly in Native language.]
    Iloculi is my Tiwa name given to me by my paternal 
grandfather. Henrietta Gomez is my paycheck name.
    Senator Inouye. Your paycheck name? [Laughter.]
    Ms. Gomez. Vice Chairman Inouye and members of the Senate 
Committee on Indian Affairs, I appreciate the opportunity to 
submit this testimony in support of the recommendations of the 
National Indian Head Start Directors Association for amendments 
to the Head Start Act as it applies to American Indian/Alaska 
Native Head Start programs.
    Among the proposed recommendations are amendments that 
relate to Native language preservation, an issue I would like 
to focus on in this testimony. In the early 1990's, Congress 
passed the Native Language Act, which recognized the unique 
status that tribes hold in the United States as sovereign 
entities through treaties and acts of Congress and the central 
importance of native languages. I hope this body will once 
again reaffirm its commitment to native people and the survival 
of their languages and culture through careful and thoughtful 
consideration.
    I went to school when I was 5 years old. My first language 
was English. My mother is Acoma Pueblo. My father is Tiwa from 
northern New Mexico. His language is Tiwa. As such, I learned 
to speak English first.
    When I went to school, I saw my classmates suffer because 
they came to school speaking their first language, which was 
Tiwa. When we would go into the playground, because they were 
forbidden to speak in the classrooms, we would go out into the 
playground and we would sit in our little circles playing, and 
they would whisper to me: [Speaks briefly in Native language.] 
``Why do you speak English? Are you a Poinsiena? Are you a 
white girl?''
    I tried very hard to learn my language. My mother, whose 
native language is Keres, saw my suffering and the trauma that 
I was experiencing, and she learned, made every effort to 
learn, the Tiwa language. My native language is my second 
language.
    I went through school speaking and learning both English 
and Tiwa. When I became a mother, I taught my children only 
English. When they became adults, young adults, I realized that 
through my efforts to prevent my children from experiencing the 
same trauma that I experienced, I robbed my children of their 
rightful heritage. My children do not speak the language.
    I came into the Head Start program when the Head Start 
program and the local Bureau school had made an effort, because 
of the community assessment and the findings of the community 
assessment, and the tribal communities voicing their concern 
about our children not speaking the language, because children 
were speaking English in places where English didn't have a 
place, and those were in our ceremonial places.
    Children were speaking to their grandparents in English. 
The grandparents sometimes didn't have anyone to speak to in 
their language, and I see this not only in my tribe, but many 
tribes across the Nation.
    After we applied for the ANA grant and were granted a 3-
year grant through an ANA program, we developed a language 
immersion program in the Head Start program. The second year of 
implementing our program our children were tested because many 
of the teachers, and even fluent Native teachers, were 
concerned that, if our children were immersed in a language 
program, they would have academic delays. In the second year of 
implementing our program, our children were tested and their 
gains were greater than the children in the English-only 
classrooms.
    We understand in the Head Start program that we have 
Federal mandates that we have to comply with. We understand our 
President's efforts to reach every child in the No Child Left 
Behind Act. We understand that English is very important, but 
just as well we want our Native languages to have the same 
recognition, to have the same status as English, because in 
order for children to progress and develop socially and 
academically, they have to be recognized and honored for who 
they are and where they have come from.
    In our language immersion program, children can go out into 
the community and acknowledge people, their people, in their 
language. Children can use their Native language outside of the 
tribal community and greet each other in their language. When 
they go out into the greater community, because they are 
nurtured and honored for where they come from and who they are, 
they can succeed in the greater world.
    Learning your native tongue and learning English can happen 
simultaneously. We see that in our language immersion program.
    After the ANA grant expired, we had an opportunity to apply 
for a full-day, full-year grant through the Head Start program, 
and we wrote our language program into the Head Start grant. 
Our teachers, our native language teachers, understand 
accountability, and many of them have taken the challenge to go 
back to school and receive early childhood education.
    We can bring more native-language-speaking teachers into 
the classroom to develop culturally-relevant material, teaching 
materials. We understood early on in our program that we can't 
just translate written curriculum or borrowed curriculum and 
try to teach our native language. It is a challenge to develop 
curriculum and teaching materials to teach native languages, 
but those teachers that have done this are very creative and 
innovative teachers that have taken that challenge.
    They teach outside of the walls of the classroom. They 
teach children to honor and respect their environment.
    As I went through my personal education process, because we 
weren't recognized and honored for who we were, many of us left 
our language and culture behind, and our children, as such, 
didn't learn that. We robbed them of that.
    I could see the breakdown of the social structure of my 
tribe. It is our hope that in bringing back the language in the 
home and in the classrooms that we can start to bring back the 
social values of our tribes which can be communicated in our 
language.
    Native language and culture in American Indian/Alaska 
Native Head Start programs will help to ensure that indigenous 
children are educated in a cultural-appropriate manner and be 
able to relate to the larger society from an intact cultural 
perspective, not from a destroyed or distorted cultural 
perspective.
    Native language programs and Head Start programs represent 
a native's adaptation of the ideal of education. For a native 
culture, learning means discovering the principles and the 
relations of everything. Integrating native culture and 
language in NIAN Head Start programs will contribute not only 
to the survival of native society, but also to the survival of 
the world through native contributions to the community of 
learning.
    We do not believe that language and literacy activities 
geared toward English are the only meaningful ones in a 
classroom of students from a native language background, the 
home language and literacies of native children can and should 
be incorporated into the classroom in ways that would be 
socially useful and cognitively challenging for children. 
Inclusion of the home language and culture in the classroom 
curriculum allows Native children the opportunity to be the 
experts and build pride in the languages and cultures of their 
family.
    The inclusion of native languages in the classroom is also 
cognitively challenging. These children will develop mental 
linguistic awareness, the ability to think how language works, 
a skill that will help them in learning how to read and write 
in English.
    In an effort to ensure school readiness, we must make sure 
to leave intact and strengthen the paths to meaningful life 
connections to family and community. Thank you. [Speaks a 
Native language word.]
    [Prepared statement of Ms. Gomez appears in appendix.]
    Senator Inouye. Thank you very much. Historians and 
anthropologists have long suggested that language is an 
integral part of culture and civilization. When language 
disappears, that culture and civilization eventually disappear. 
No one knows anything about Assyrians now. It is because it is 
long gone. No one speaks that language. Or Chaldean or 
Babylonian, but these were great civilizations at one time.
    In the same sense, I agree with the anthropologists and 
sociologists and historians. I am proud to say that we in 
Hawaii have a very ambitious Native Hawaiian language immersion 
program, and like you, the results have shown that children who 
have gone through the program have done academically better 
than those who have not. So I congratulate you.
    My question to you is: Have you found, has your tribe 
experienced any barriers in establishing and operating a native 
language immersion Head Start program? Has the Government put 
any obstacles in your path?
    Ms. Gomez. In the beginning, when we first implemented our 
program, there were questions, just as I testified, on whether 
there would be delays in the children's academic performance. 
There were also, interestingly, the instructors, sometimes even 
native instructors, stating that, ``I went and took and got my 
degree to teach in English. I was not taught to teach my 
language.''
    So I think that in this act, if there is language in the 
law where all people can understand that language and culture 
are important to the development, the healthy and well-being of 
children, that everyone can understand and not put up personal 
barriers, and we can overcome attitudes and understand 
differences and honor everyone's culture and language.
    Senator Inouye. I thank you very much, Ms. Gomez.
    May I now recognize Ms. Guillory.

   STATEMENT OF CONNIE GUILLORY, NATIONAL INDIAN HEAD START 
  DIRECTORS ASSOCIATION, BOARD MEMBER AND DIRECTOR, NEZ PERCE 
              TRIBE HEAD START PROGRAM, LAPWAI, ID

    Ms. Guillory. Thank you very much. Usually I don't have to 
use a mike, but I will be professional, I guess.
    But I did hand this out yesterday, and I hope you do have 
it in your packets. What it says is ``The Nez Perce Tribe's 
Early Childhood Development Program: Its Journey to Distance 
Learning Education.'' I will be referencing that.
    Today I am here to represent Head Start and Early Head 
Start programs in Indian country and to talk about the 
relevance and importance of distance learning for these 
programs. In my experience as the Director of the Nez Perce 
Tribe Early Childhood Development Program, which includes Head 
Start, Early Head Start, and the Child Care and Development 
Fund, distance learning can and has successfully bridged the 
resource gap experienced by nearly all rurally-located Indian 
tribes. To do this, Indian country has already begun developing 
collaborations to utilize distance learning, especially for 
professional development purposes.
    As we know, Indian country does not have a cadre of people 
prepared to enter the workforce. Rather, the workforce consists 
of parents with children. Unfortunately, all too often they 
lack the skills needed or are entering the workforce for the 
first time, do not have a high school diploma, and many are 
working to just get their GED.
    So what do we do in Indian country? We have to become 
creative and innovative while developing practical, attainable, 
professional development training plans to meet the needs of 
staff, the tribal government, and the Federal Government. Thus, 
the role of technology allows programs to develop training 
activities and opportunities for our children, families, and 
communities.
    Since 1994, when new academic requirements were added to 
the Head Start Act, tribes have had to collaborate, create, and 
develop systems to meet these requirements. In doing so, they 
have had to address the difficulty of being located far from 
major educational institutions.
    One way we have dealt with this challenge has been through 
distance learning. While distance learning is relatively new to 
early childhood programs in Indian country, I am happy to 
report that it is up and running.
    Tribes seek to provide ways for their people to get degrees 
without having to leave the reservation. For Head Start 
programs, distance learning permits relatively easy access to 
quality professional development training plans. We should not 
forget that our staff often pursue these degrees while working 
full time and raising a family.
    Of course, distance learning not only allows tribes to 
offer opportunities to tribal members, but also to their 
workforce, including the non-Indians. It is a tool that works 
for everyone: tribal governments, employees of the tribe, and 
the communities within a reservation.
    I am here to specifically talk about the distance learning 
program that the Nez Perce Tribe in Idaho entered with the 
Northwest Indian College based in Bellingham, Washington, 
almost 10 hours away. In 2001, we entered into an agreement, 
and in 2002, through the Head Start program, was specifically 
to assist our tribe in getting our staff trained to get on 
their way towards their AA degree.
    What we have found through this collaboration, the MOA is 
really a commitment on both sides for the Head Start Bureau, 
for the local or community college, and for tribes that enter 
into this agreement.
    In my research I looked at the commitments ranging from 
Alaska, which is very remote, to the Navajo Nation, which is 
very big. Our tribe isn't that big. We do encompass five 
counties.
    But even though distance learning can be successful, there 
is a lot of the costs and benefits you have to look at prior to 
getting into it. I kind of look at insight and I think, my 
gosh, we have accomplished so much, and maybe because we didn't 
know we were successful, and maybe if we would have known, we 
wouldn't be as far as we are. I don't know, but it has worked.
    I do cite some things: that when you first go into distance 
learning, you talk about technology, the hardware, the video 
players, the cameras, software, transmission, looking at the T1 
line, satellite, microwave. The examples I have given in our 
brochure here, a PowerPoint presentation, is how we show it 
from Lapwai to Kamiah, which is 62 miles going up the beautiful 
Clear Water River.
    But in that it is just valleys. It is not flat. It is 
trees. That was probably one of our biggest obstacles. It took 
us 1 year to get that in place.
    You look at the maintenance, repair, and update, the 
infrastructure. Does the program have the infrastructure in 
place, production, the support, the support from the tribes, 
from the colleges, from Northwest Indian College? How fast can 
they get over here from Bellingham?
    Well, luckily, our tribe has that information of support 
systems, the personnel to not only run the program, but getting 
instructors that are qualified. We do run ads every year. 
Although the costs of distance learning are truly outweighed by 
the benefits, I do point out that, to just start this program, 
it costs $463,000 to start up.
    As a result, from this, as we have when I heard you speak 
earlier about articulation agreements, we have articulation 
agreements with Washington State University in Pullman, 
Washington; the University of Idaho, which is in Moscow, ID, 
and Lewis and Clark State in Lewiston, ID.
    As we talk about this and as I try to describe it, 
collaboration is the key, and in Indian country that is 
survival. I think about, I actually made this sentence up: For 
Indian country, collaboration is not an option; it is a 
necessity and, fortunately, it exists.
    One successful collaborative effort is that between the 
Head Start program and the American Indian Higher Education 
Consortium and tribal colleges and universities. There are 32 
accredited tribal colleges and universities that offer early 
childhood education programs.
    Then we get into our professional development that we are 
required to do through the Head Start Act. It says, each Head 
Start agency would be required to coordinate and collaborate 
with the local education agency serving the communities 
involved to ensure curriculum and classroom experiences for 
Head Start are aligned with the cognitive, social, emotional, 
and physical skills that children entering kindergarten are 
expected to demonstrate.
    We didn't even know this was going on, Mr. Inouye, in that 
the Idaho Reading Indicator--it is called the IRI--had been 
testing our children that were leaving Head Start to 
kindergarten from 1999. The skills they were looking at was, 
once they left Head Start to kindergarten, could they write 
their own name? Could they detect rhyme? Could they detect 
syllables and identify uppercase letters?
    I am happy to report from this graph you will see in 1999 
15 percent scored at or above grade level; 3 years later, in 
2002, our children scored at 49 percent at or above grade 
level.
    As a part of this, as I indicated earlier, our Early Head 
Start program, which we are so fortunate to have, is offering a 
holistic approach to child development, and I am really a 
believer that every--you know, of course, I am going to say 
every Indian program should have an Early Head Start program, 
but we start with the mothers who the babies are being inside 
of them, until they come into the program from Early Head Start 
to Head Start. We have seen this work because, as a part of 
this statistic, these are our Early Head Start children that 
started at a minimum in our program at 3 months old, the brain 
development. So it does work.
    That is a passion. Today, probably he has already been 
born; I have a grandson that has just been born today as I 
present this testimony. So it will be very memorable to me.
    Professional development can be achieved but requires 
financial and administrative support. I would like to state 
that we did receive notice that the new T&TA system that has 
been dismantled was supposed to have started September 1, and 
to our knowledge, it has not begun. It is a concern that we 
have.
    I would like to, in closing, NIHSDA strongly supports 
amending the Head Start Act to provide grants to tribal 
colleges and universities, to increase the number of post-
secondary degrees in early childhood education, and increase 
funding for Indian Head Start early childhood services. When I 
say that, I don't mean just Head Start. I am talking from birth 
to 5 years of age. As shown in our report, it does work.
    In collaboration with local school districts, we support 
that, but we need to keep it separate because this is a result 
of it. I don't know that we should necessarily be mandated, 
even though I heard an assurance that that wouldn't occur.
    Then increase funding to retain and recruit staff. Again, 
this was real disappointing for me, is that, through this 
process of getting staff educated, what we are finding now, 
they are getting their education. We are helping to support 
them. Just last week, I lost a person. I know we can never keep 
them or make them stay with you, but a lot of it is going to 
have to depend on the salary we are going to be able to pay 
them. We have to pay them. She gave me two days' notice and she 
went to the Lewiston Idaho School District. So that was really 
a disappointment to us.
    I just want to say that it does work, Early Head Start and 
distance learning, and that we need to have enough funding to 
meet these mandates. I had Windy Hill ask me that. When I 
showed her the diagram, she said, ``Well, how did it work? What 
did you do?'' I said, ``Well, I don't know. I guess we've done 
what you told us to do.''
    I think as Indian people we do that. We get these Federal 
regulations and we do; we do the best we can without a lot of 
times the resources to do it.
    With that, Mr. Chairman, thank you.
    [Prepared statement of Ms. Guillory appears in appendix.]
    Senator Inouye. Well, congratulations. The Nez Perce Tribe 
is very fortunate to have you, Ma'am.
    Ms. Guillory. Thank you.
    Senator Inouye. Under the Memorandum of Agreement, what 
percentage of your teachers have met, or are meeting, the 
education degree requirement?
    Ms. Guillory. Mr. Chairman, until I lost this person, we 
were doing pretty good. Right now I am one of those directors, 
contrary to probably a lot of the belief out there, that what 
we have set up in the way of professional development, that 
within the first year they must get their CDA. That is the 
basic foundation.
    Along with that, then they start to enter into school for 
their AA degree via our distance learning program. If they 
choose to go directly or they already have some classes, we 
just start their professional development plans and try to 
provide that support to get their degrees.
    We are not at 50 percent. We are at probably 75 percent for 
our CDAs, but we are not for our AAs. I mean I am not even 
looking at a bachelor's, to be honest with you.
    I know that they are trying to make that mandatory by 2008. 
I don't know that tribes can meet that.
    Senator Inouye. I thank you very much, and, ladies, I thank 
you all very much.
    Our next panel: The National Indian Head Start Directors 
Association board member, Lee Turney; National Indian Head 
Start Directors Association board member, Ann Belleau; 
executive director, Department of Education, Pueblo of Laguna, 
Gilbert Sanchez, and Navajo Nation Government Services 
Committee, Roy Laughter.
    Mr. Turney.

 STATEMENT OF LEE TURNEY, NATIONAL INDIAN HEAD START DIRECTORS 
  ASSOCIATION, BOARD MEMBER AND DIRECTOR, LEECH LAKE BAND OF 
 OJIBWE HEAD START PROGRAM, CASS LAKE, MN, ACCOMPANIED BY ANN 
  BELLEAU, NATIONAL INDIAN HEAD START DIRECTORS ASSOCIATION, 
  BOARD MEMBER AND DIRECTOR, INTER-TRIBAL COUNCIL OF MICHIGAN 
  INC. HEAD START/EARLY START, SAULT STE. MARIE, MI; GILBERT 
SANCHEZ, EXECUTIVE DIRECTOR, DEPARTMENT OF EDUCATION, PUEBLO OF 
  LAGUNA, LAGUNA, NM; ROY LAUGHTER, NAVAJO NATION GOVERNMENT 
SERVICES COMMITTEE, NAVAJO NATION, PHOENIX, AZ; AND LEE MORGAN, 
    CONTRACT COMPLIANCE OFFICER, NAVAJO NATION, PHOENIX, AZ

    Mr. Turney. Good morning, Mr. Chairman. First, I would like 
to thank you for allowing me an opportunity to present oral 
testimony on the reauthorization of Head Start. I will 
concentrate my comments this morning on Indian Head Start 
research and the need to establish curricula that reflects the 
unique learning styles and cultural values of Native American 
people.
    In the area of research, while some research has been done 
in Indian country, tribes are still legislatively excluded from 
the national research agenda. If we are to meet the challenges 
of tomorrow and establish the successes for our children, we 
need to be included in any further and in future research 
agendas at the national level.
    Also, when research is conducted, it will be important to 
take into account the unique cultural characteristics of the 
children and families that we serve. Also, tribal communities 
must have a significant voice in the research when it is 
designed and conducted.
    There is a strong consensus that American Indian and 
Alaskan Native children bring unique aspects of their culture 
and background when they come into Head Start. In order for us 
to provide appropriate relevant Head Start services, programs 
must be able to accommodate those unique characteristics.
    The American Indian/Alaska Native programs support the Head 
Start Bureau's efforts to improve accountability by 
strengthening the screening and assessment of child outcomes 
and program monitoring. However, these instruments, measures, 
and procedures that are going to be used to assess our children 
must be culturally-appropriate.
    The National Indian Head Start Directors Association 
recommends research in some of the following areas:
    The national reporting system. We need to ensure that as we 
go out and do this assessment on our children that the tool is 
culturally-appropriate and sensitive to the various aspects 
that our children provide across Indian country.
    The current Head Start Act of 1998 had two studies which 
Congress thought were important back in 1998. To date, neither 
of these studies have been reported out to Indian country.
    They are, one, status of children. This report was to 
conduct a study on the service delivery to Indian children 
living on or near Indian reservations.
    A side note to that is that the migrants were also included 
in this legislative action. Their report has been completed and 
published.
    Another report was on facilities, and we heard earlier that 
that report should be coming out in the near future, but it was 
a report that looked at the condition, location, and ownership 
of facilities that are used currently or available for use by 
travel grantees.
    In my written testimony I have outlined a few other 
examples of research projects that the association submits for 
consideration in the future.
    In the area of curricula, many observers and educators have 
noted the importance of providing culturally-appropriate 
curricula for the American Indian and Alaska Native children. 
In this, language and culture, as we have heard in previous 
testimony this morning, plays a vital role. We believe that 
this would provide for the social, emotional, and historical 
links that would aid in the child development and achievement 
in school.
    We believe that each child must have an understanding of 
who they are and where they have come from in order to be able 
to walk in both worlds, as we have to do today to be 
successful. Indian students learn in styles that are unique to 
their cultural upbringing. At times the American education 
system and their background are not compatible. Then we need to 
have the research available that defines that. Like any child, 
an American Indian/Alaska Native child would be more apt to be 
engaged in classroom activities and instructions if the 
curriculum that was being presented fit their cultural 
backgrounds.
    Research is very important. I believe that we have heard 
today how important culture/language is in the development of 
our children and knowing who they are as Native American 
peoples.
    I urge Congress to make provisions in the new Head Start 
Act that would recognize tribes in the future as part of the 
national research agenda, so that we can provide the curricula, 
both in Early Head Start, Head Start, and also into the public 
and tribal school systems that is reflective of the children 
that they are providing services for.
    Mr. Chairman, I thank you.
    [Prepared statement of Mr. Turney appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Turney.
    Are you suggesting that the reporting system is culturally-
insensitive?
    Mr. Turney. That has been the consensus from the people 
that we have sent to do the conduction of the test. We have 
moved forward, but our concern, again, is across Indian country 
is that there are some biases that have been included and have 
been removed. But it is our belief that if we are going to go 
forward in tests, then the testing tool should be accurate and 
should meet all the needs of all the children, instead of fix 
it as we go.
    Senator Inouye. And the tools today are not sufficiently 
culturally-sensitive?
    Mr. Turney. No, sir; I don't believe so.
    Senator Inouye. All right, thank you very much.
    Mr. Turney. Thank you, sir.
    Senator Inouye. May I now recognize Ms. Belleau.

STATEMENT OF ANN BELLEAU, NATIONAL INDIAN HEAD START DIRECTORS 
ASSOCIATION, BOARD MEMBER AND DIRECTOR, INTER-TRIBAL COUNCIL OF 
   MICHIGAN INC. HEAD START/EARLY START, SAULT STE. MARIE, MI

    Ms. Belleau. Thank you. Thank you for the opportunity to 
testify today on behalf of the National Head Start Directors 
Association. My testimony focuses on the need for an American 
Indian and Alaska Native Early Head Start funding setaside 
separate from the current pre-school Head Start setaside.
    There are many reasons that justify the need for a separate 
setaside for the American Indian/Alaska Native programs. The 
first reason is the obvious disparity in the number of tribal 
Early Head Start programs that are funded as compared to the 
other 10 regions.
    From the very beginning, the American Indian/Alaska Native 
programs received proportionately less funding. During the 
first wave of Early Head Start funding in 1995, only 2 out of 
68 applications funded were tribal programs. This pattern of 
funding fewer tribal programs began in 1995 and has continued 
until today. In fact, most recently, during the last funding 
opportunity, only 4 of the tribal applications received 
funding, leaving more than 20 applications from tribal entities 
unfunded.
    A separate setaside would ensure equal opportunity for 
tribal applications and would alleviate the American Indian/
Alaska Native programs from competing for Early Head Start 
funds at the national level with the other 10 regions and only 
compete for funds with their counterparts in the American 
Indian/Alaska Native Programs Branch. This would also allow for 
tribal applications to have a separate grant review process 
where the reviewers would better understand the unique 
circumstances that each tribe is challenged with.
    Today there are 708 Early Head Start programs across the 
Nation. Only 43 of those programs are American Indian/Alaska 
Native programs. This is only approximately 5 percent of the 
total Early Head Start grantees.
    The 2002 PIR data confirmed that only 4.6 percent of the 
nationwide enrollment are American Indian/Alaska Native 
children, to again demonstrate the blatant disparity of tribal 
Early Head Start programs that have been funded and are 
currently available to tribes across the country. A separate 
setaside would ensure a more equitable distribution of grant 
funds to tribal governments. The existing setaside for pre- 
school Head Start has provided a foundation for stable American 
Indian/Alaska Native pre-school Head Start programs. A separate 
setaside would provide the same opportunity to tribal Early 
Head Start programs.
    Currently, the national Head Start budget only allocates 
2.9 percent of funding for the American Indian and Alaska 
Native pre-school Head Start programs. This allocation 
currently is not sufficient for the pre-school age program and 
should not be considered as a source for the tribal Early Head 
Start setaside, justifying the need for a completely separate 
setaside for the American Indian/Alaska Native Early Head Start 
programs.
    Early Head Start is very beneficial to the American Indian/
Alaska Native population because services to pregnant women, 
infants, and toddlers are limited. Early Head Start is the only 
comprehensive early childhood program of its kind available to 
tribes.
    Early Head Start improves the overall quality of life by 
ensuring that children receive immunizations, routine health 
care, nutritious meals, family services, improved parenting 
skills, and much more. Early Head Start programs double as 
child care services for families to provide them with more 
opportunity to attend classes or work without the added expense 
of paying for child care that they cannot afford.
    There is a greater need for Early Head Start services 
within Indian country since tribes are disadvantaged by lack of 
resources and struggle to find funding to operate programs and 
services to assist tribal members. While there is a common 
misconception that tribes are rich because of the casinos, in 
reality this is not the case, except for a few who are the 
minority, not the majority. The rest of us benefit from low-
paying jobs that put us just over the Head Start income 
guidelines, but certainly do not make us rich. These low-paying 
jobs put food on the table and money to pay everyday household 
bills without having to depend on TANF for assistance, rich we 
are not, but in need we are.
    Thank you.
    [Prepared statement of Ms. Belleau appears in appendix.]
    Senator Inouye. Thank you very much, Ms. Belleau.
    I just received a call from the Senate Chamber. I am the 
senior member of the Defense Appropriations Committee, and they 
just brought up my bill and they feel that I must be there in 
order to manage that bill. So may I call a short recess? We 
will try to resolve the matter in the Senate immediately. So 
can you stick around for about half an hour? Thank you very 
much.
    [Recess.]
    Senator Inouye. I am sorry for this interruption, but I 
think we have the matter resolved.
    Ms. Belleau, we have heard about Indian children being 
involved. How many children do you believe are eligible for 
these programs and how many are enrolled? I just want to see 
how many are denied this.
    Ms. Belleau. As far as being denied, I can't really give 
you a specific number, but we do know that there are a lot of 
tribes that are not even being served right now under Early 
Head Start. In my State alone we have three tribes that are 
completely unserved for Head Start or Early Head Start. But as 
far as specific numbers, we could certainly get that 
information back to you.
    Senator Inouye. Yes; I think the committee would like to 
know how many eligible children there are and how many are 
enrolled. That would give us an idea of what the scope is.
    Thank you very much, and may I now recognize Mr. Sanchez.

STATEMENT OF GILBERT SANCHEZ, EXECUTIVE DIRECTOR, DEPARTMENT OF 
            EDUCATION, PUEBLO OF LAGUNA, LAGUNA, NM

    Mr. Sanchez. Thank you, Mr. Vice Chairman, for inviting me 
to testify on behalf of the Pueblo of Laguna regarding Head 
Start reauthorization. My written testimony has been submitted 
for the record, and it describes Laguna's Head Start and early 
childhood programs in more depth.
    But let me just say that our programs are family-driven and 
very comprehensive. There are more than 600 children under the 
age of 5 years in our community. We are serving only 40 percent 
of them, in large part due to the concerns and issues I have 
identified in the written testimony.
    It is important to distinguish that these comments are 
unique to Laguna tribe that has successful years of experience 
in managing our own education system, and, therefore, our 
position may not be fully supported by all tribes.
    In summary, our concerns are, first, the option of direct 
funding to tribes should be provided on a contractual basis 
with the Federal Government, so that tribes can provide 
comprehensive education programs.
    Second, funding levels for all programs are inadequate and 
need to be increased.
    Third, the 15 percent limitation on administrative costs is 
too low. The Pueblo needs to fully recover administrative 
costs.
    Fourth, continue to improve the administration of 
performance standards and evaluations.
    Fifth, separate program funds must be made available to 
meet our facilities and transportation needs.
    Sixth, national standards and assessment criteria must 
accommodate and support the provision of language and culture 
evaluation/education.
    For the remaining of my time I would like to discuss 
Laguna's support for the Department of Health and Human 
Services direct contracting for tribes for Head Start and early 
childhood programs. I will also discuss the supreme importance 
of providing our children with language and cultural education.
    The Pueblo of Laguna was enthusiastic about President 
Bush's initiative to encourage the consolidation of early 
childhood programs with Head Start programs. However, we were 
disappointed that the President did not initiate this helpful 
concept for tribes. Because of this, Laguna is delighted and 
supportive of the committee for considering the establishment 
of direct contracting tribal demonstration programs. A 
demonstration program should allow tribes to, one, establish 
their own performance standards and compliance criteria; two, 
develop and implement Native language and culture immersion 
programs; three, develop streamline reporting systems for 
managing multiple programs to minimize administrative costs, 
and, four, identify barriers to effective use of Federal, 
tribal, State, and private resources.
    However, we must point out that the tribal demonstration 
projects will be hampered by multiple program and agency 
requirements unless Federal administrative reforms are 
implemented. To this end, Laguna believes that:
    First, tribes should be able to combine Federal funds with 
multiple agencies into a single administrative system.
    Second, Federal agencies should collaborate on how to 
combine the resources into a single service delivery system.
    Third, Federal agencies should be assisted in harmonizing 
their statutory requirements by enabling them to waive 
requirements where it makes sense to do so.
    Fourth, integration tools should be developed and used to 
streamline reporting, auditing, and oversight of programs.
    Fifth, Federal agencies should jointly provide multiple 
program technical assistance.
    Other Federal reforms are needed to facilitate interagency 
fund transfers, eliminate separate recordkeeping requirements, 
and allow tribes to receive full administrative costs 
compensation without overage reductions.
    The importance of tribal preservation of language and 
culture: Laguna Pueblo values thinking and education of 
families, but we must also value traditional culture and 
ceremony. The early years of childhood are critical to a 
lifelong development not only in the cognitive or physical 
sense, but also in the social and cultural sense. The 
traditional means of educating children must be supplemented by 
our education systems, including the Head Start and early 
childhood programs. A young child's early conception of the 
basic elements of language and culture are important to Laguna 
people for lifelong success as an individual, as a contributing 
member of Laguna society.
    Laguna is concerned that the great emphasis on other 
learning will undermine our important efforts in language and 
cultural transference. In order to be Laguna and to say that 
Laguna exists in the world, Laguna's values, attitudes, 
beliefs, rules, history, kinship, and certainty of life must be 
transferred to each generation. Our stories, language, and 
ceremonies represent particular Laguna knowledge on a variety 
of subjects. These cultural lifeways are the backbone of our 
society.
    The Bush administration is developing a national reporting 
system to measure a child's language and literacy skills in 
order to track child outcomes and progress in educational 
achievement. Laguna supports closing the achievement gap of 
disadvantaged children, but the proposed system only values 
non-cultural learning. If child readiness and programmatic 
success are to be measured only by non-cultural learning 
outcomes, tribal programs may not be able to fully measure up, 
and this would be exceedingly unfair.
    Cultural education and provision of it must not be 
discounted in the evaluation of readiness skills nor in the 
evaluation of programmatic success. Instead, Native language 
and culture education should be supported.
    The Native American Language Act makes it official Federal 
policy to preserve, protect, and promote the rights and freedom 
of Native Americans to use, practice, and develop their 
languages. We think that the Department of Health and Human 
Services should embrace this policy.
    In conclusion, again, I want to thank you for allowing the 
Pueblo of Laguna to present its views. Our Pueblo is obligated 
to do the best we can for our families and children. That is 
why we are here today, and we look forward to working with this 
committee in the future. Thank you.
    [Prepared statement of Mr. Sanchez appears in appendix.]
    Senator Inouye. Thank you very much, Mr. Sanchez.
    I have received communications from several leaders who 
have suggested that self-determination contracts be entered 
into to authorize Indians to establish their own Head Start 
programs, programs where the performance standards would meet 
or exceed that established by the Bureau. Do you believe that, 
if this authorization is established, programs under these 
agreements would exceed the performance standards that are now 
in place?
    Mr. Sanchez. Yes; I do. I feel like, if given the 
opportunity, we would work toward quality. As it is now, when 
you consider performance standards, they are minimum and many 
times we don't even measure up to the minimum, for lack of 
resources and wherewithal as tribes.
    But in the case where Laguna established its own Department 
of Education, we were able to combine all our education 
programs into one system in Laguna. So we basically manage 
about 35 funding sources and about six different fiscal years.
    I think the success we are having with our programs, 
managing all of our programs under one agency, has really 
allowed us to focus on the quality aspect of it. So I think, 
given the 10 years of experience that we have had doing this, 
that Head Start would do very well within our program because I 
know we would be able to follow the guidelines that probably go 
beyond that.
    Senator Inouye. Thank you very much, Mr. Sanchez.
    Mr. Laughter.

 STATEMENT OF ROY LAUGHTER, NAVAJO NATION GOVERNMENT SERVICES 
             COMMITTEE, NAVAJO NATION, PHOENIX, AZ

    Mr. Laughter. Mr. Vice Chairman Inouye and staff members of 
the Senate Committee on Indian Affairs, good morning. My name 
is Roy Laughter. I am a council delegate from Chilchinbeto and 
Kayenta Chapter of the Navajo Nation. With me to answer 
questions about Navajo Head Start is Lee Morgan, contract 
compliance officer.
    On behalf of the Navajo people, I thank you for this 
opportunity to present our concerns and recommendations 
regarding the proposals before Congress to change the Head 
Start program. The Navajo Head Start program is of critical 
importance to the health and welfare of the Navajo children. 
Head Start enables the Navajo Nation to invest in its most 
valuable resource, the children of the Navajo Nation.
    The Navajo Reservation is geographically as large as West 
Virginia. The unemployment rate on the Navajo Nation currently 
ranges from 50 to 60 percent. Our per-capita income is $6,123, 
which is less than one-third of its State neighbors, Arizona 
and New Mexico.
    The Navajo Nation has over 19,000 children. Navajo children 
alone represent one-third of all the Native American children 
who receive Head Start services throughout the United States. 
The Navajo Head Start serves nearly 4,073 children who 
otherwise would not receive comprehensive services.
    The Navajo Head Start is one of the largest Native American 
Head Start programs operating in the United States today. In 
fact, they are one of only ten super-grantees within the Head 
Start Bureau. Navajo Head Start has 250 centers and offices, 
177 classrooms, and 60 home-based programs. The Navajo Head 
Start serves a growing population whose birth rate is 21.7 per 
1,000, compared to the United States at 14.8 per 1,000.
    Since its inception in 1965, Navajo Head Start has taken on 
new initiatives to provide comprehensive health, educational, 
nutritional, socialization and related culture to promote 
school readiness. Navajo Head Start provides medical and dental 
screenings and nutritional meals to students. Parenting classes 
and counseling services are also offered to Head Start families 
on the Navajo Nation with a special component for career 
development, to help Navajo parents to provide better lives for 
their children.
    The Navajo Head Start is nationally distinguished as a Head 
Start that offers programs to preserve culture and language 
using technology infrastructure. The Navajo Head Start has two 
primary concerns related to changes reflecting President Bush's 
proposal to Head Start programs.
    The first concern regards the delegation of Head Start 
authority to States. The second is lack of recognizing language 
and culture which is essential to a child's development. The 
following is a brief outline of these concerns.
    First, the Navajo Nation finds that the delegation of Head 
Start authority to the State would be difficult because the 
Federal Government has treaty and trust responsibility to 
Indian tribes through the United States Constitution, treaties, 
case laws, and subsequent legislations. Our program exists in 
Arizona, New Mexico, and Utah.
    Given the historical relationship between the Navajo Nation 
and States, our relationship has not been favorable toward 
receiving fair and equitable funding of Federal flow-through 
dollars. As a result, tribes do not see the State as a proper 
mechanism for these programs and have, instead, insisted on 
maintaining the direct government-to-government relationship 
with the United States.
    Second, the Navajo Nation believes the Navajo language and 
culture are an integral part of our children. Language and 
culture is a way of life that defines one's self identity and 
self esteem. It is the hope of the Navajo Head Start to aid in 
the preservation of the Navajo language and culture.
    We have two recommendations. First, exempt the American 
Indian/Alaskan Native Program Branch from State authority to 
ensure that the Navajo Nation and tribes maintain the 
government-to-government relationship and direct funding to 
tribal communities.
    Second, incorporate the Native American Language 
Preservation Act. On behalf of the Navajo people, Navajo Head 
Start, we proudly present this program to the Senate Committee 
on Indian Affairs not only as an educational institution, but 
as a quality holistic program uniquely designed to meet the 
individual needs of each child, family, expectant mother, and 
community. We are committed to empower each child, family, 
expectant mother, and community to become proactive and 
effective learners, leaders, and caretakers of the future 
generation of the great Navajo Nation.
    I thank you, Mr. Vice Chairman.
    [Prepared statement of Mr. Laughter appears in appendix.]
    Senator Inouye. I thank you very much, Mr. Laughter. Your 
testimony suggests that your program in the Navajo Nation is a 
successful one. Am I correct?
    Mr. Laughter. Yes.
    Senator Inouye. You have indicated that there are 19,000 
eligible children?
    Mr. Laughter. Yes, sir.
    Senator Inouye. And, of that number, 4,500 are enrolled?
    Mr. Laughter. Yes.
    Senator Inouye. The remaining 14,500, are they not in the 
program because they don't wish to take part or are they denied 
access because of lack of funds?
    Mr. Laughter. I would like to defer this question to Mr. 
Morgan because he is an expert on that.
    Senator Inouye. Mr. Morgan.

 STATEMENT OF LEE MORGAN, CONTRACT COMPLIANCE OFFICER, NAVAJO 
                      NATION, PHOENIX, AZ

    Mr. Morgan. Vice chairman of the Senate Committee on Indian 
Affairs, Mr. Inouye, there are 19,000 children that are 
documented that we have on the Navajo Nation. Of that 19,000 
children, we are providing services to 7,000; 4,000 of those 
services are provided by Head Start; 3,000 are provided by 
Child Care Development Fund Program. The remaining children are 
either taken in by the FACE program or the majority of those 
children are basically left at home.
    Senator Inouye. So there are some children left out?
    Mr. Morgan. There are a lot of them left out. It is 
estimated that 60 percent or more are not even being served.
    Senator Inouye. This is because of the lack of funds or the 
lack of trained personnel?
    Mr. Morgan. There are several factors involved in this. 
There is several legislations that have been enacted by 
Congress that impact it. One of them is the Workforce Program, 
which basically what it is is have the parent go back to work. 
So that impacts the Head Start program in a way that we don't 
get volunteer service, but it also makes the parents have to 
move away from the reservation into larger cities. But those 
that do remain, they basically are now dependent on their 
extended family to provide that support. Due to the facility 
and our funding enrollment, we are not able to serve those 
children. So there are several circumstances involved as a 
whole that affects those services to children.
    Senator Inouye. Is this the same ratio that you find in 
your tribes, 60 percent not having access to the Head Start 
program?
    Ms. Belleau. Ours vary from tribe to tribe. You know, we 
have small communities and large communities and then some 
communities who are not served at all. So I would say that 
would be accurate as an overall percentage for our State.
    Senator Inouye. Whatever the cause, some children are being 
left behind?
    Ms. Belleau. Definitely.
    Senator Inouye. Well, I can assure you that this committee 
will do its utmost to make certain that no child is left 
behind. Notwithstanding what others say about it, we will try 
our best to carry that out.
    So, with that, I would like to wish all of you a good day. 
Thank you very much for your participation. The committee 
appreciates it very much. Thank you.
    [Whereupon, at 12 noon, the committee adjourned subject to 
the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of Windy M. Hill, Associate Commissioner, Head Start 
            Bureau, Department of Health and Human Services

    Mr. Chairman and members of the committee, I appreciate this 
opportunity to testify before you today on the President's plan to 
strengthen Head Start, including those programs serving American Indian 
and Alaska Native children and families. Head Start is an important 
means of helping to ensure that every child has the opportunity to 
enter school ready to learn. Recently, the House took a major step 
toward making certain that each Head Start child will have the skills 
they need to succeed in school by marking up H.R. 2210, the ``School 
Readiness Act of 2002'' to reauthorize and strengthen the Head Start 
program. We look forward to action on Head Start reauthorization in the 
Senate in the coming days.
    I would like to focus my time today on the President's goals for 
improving Head Start, both through reauthorization and also through 
direct changes in program services. I also want to share some 
highlights and insights into Head Start services and operations within 
American Indian and Alaska Native programs [AIAN Head Start], that I 
know are of special interest to this committee. The President remains 
committed to maintaining the current Federal to local relationship with 
American Indian and Alaska Native Head Start programs and working with 
these programs to address the unique challenges they face.
    As you know, Head Start was launched in 1965 as part of a bold, 
``big idea''--that no child should be disadvantaged in their education 
because of the circumstances of their families. Our common goal 
remains--to prepare our children for success in school and later life. 
What you may not know is that I am one of the lucky ones--one for whom 
the Head Start program goals and ideals became a vivid reality. I am 
here today as a living legacy of the fulfilled promises that Head Start 
can and must make for every child and family. I am here not only as the 
Associate Commissioner of Head Start, but also as a former Head Start 
child and the mother of a Head Start child who is now an accomplished 
high school student.
    As a child growing up in rural Texas, no one could have imagined 
that I would 1 day testify before the U.S. Congress. No one could have 
imagined that I would introduce the President of the United States 
during his recent public address at a local program. No one knew for 
sure, but everyone believed in the power of Head Start to change lives 
and influence futures.
    None of us should be satisfied until we have achieved the vision 
reflected in the bold ideas that have become synonymous with Head 
Start, which is that economically disadvantaged children should arrive 
at school on a level playing field with their more economically 
advantaged peers. Any current shortfalls in achieving this goal should 
not label the Head Start program as a failure. We must all see it as a 
challenge for the program to do even better.
    Recent research shows that although Head Start children make 
progress in areas of school readiness during the Head Start year, they 
continue to lag behind their more economically advantaged peers. Even 
Head Start graduates making significant progress continue to lag too 
far behind age norms on a number of important indicators of emerging 
literacy and numerary skills.
    Consequently, the President and Secretary Thompson sent a clear 
message to the Head Start Bureau. Given this compelling evidence, more 
has to be done to strengthen the educational outcomes for children. In 
response to the President and Secretary Thompson's charge, we must look 
for ways to improve the effectiveness of the Head Start program. Much 
about the program works, and works well, but we know the program needs 
to move ahead--particularly in the areas of educational gains and 
coordination.
    As part of the President's Good Start, Grow Smart initiative, we 
were directed to increase the knowledge and skills of Head Start 
teachers in the area of preschool language and literacy and to create 
and manage a National Reporting System that will help measure 
children's progress in mastering the skills necessary to enter school 
ready to learn.
    In response, the Head Start Bureau has already undertaken a number 
of efforts aimed at bolstering the school-readiness of Head Start 
children. The Strategic Teacher Education Program, known as STEP, 
launched last summer, was designed to ensure that every Head Start 
program and every classroom teacher has a fundamental knowledge of 
early development and literacy, and of state-of-the-art early literacy 
teaching techniques. More than 3,300 local program teachers and 
supervisors, including representatives from ALAN programs, have 
received this training and have served as ``trainers'' to the nearly 
50,000 Head Start teachers across the country. I am pleased to report 
that these trainers and Head Start directors are reporting that this 
early literacy training is making a difference in their classrooms.
    Following the summer training sessions, the Head Start Bureau 
hosted national training conferences on mentor-coaching and social-
emotional development. These events expanded the skills of teachers and 
supervisors in fostering effective classroom practices. A national Web-
based resource, called STEP-Net, has been created to help early 
literacy specialists access and use resources and tools, and to 
exchange information and promising practices.
    We see AIAN grantees actively participating in these nationally 
convened and sponsored Head Start trainings. Because the President has 
made accountability a guiding principle of his Administration, we are 
working to make sure that we measure the outcomes of our efforts, not 
merely the processes and procedures that make up each of our programs.
    To that end, the most important indicator of any program's efficacy 
is whether it is, in fact, helping the individuals it is intended to 
help by achieving important outcomes. Throughout Head Start's history, 
critical outcomes have been reported for child health, child 
development, parent education, adult literacy and GED's, and other 
aspects of Head Start's hallmark comprehensive service design. However, 
in many Head Start programs, the cognitive aspects of school readiness 
have not been a priority and cognitive outcomes have not been included 
in annual program reports.
    Good Start, Grow Smart, therefore, calls for not only the 
improvement and strengthening of Head Start through intense, large-
scale efforts in the areas of early language and literacy, but also for 
a method to track the results of this effort. As the President often 
reminds us, good intentions, although better than bad intentions, are 
not good enough. This Administration believes that we must also 
challenge ourselves to determine whether or not good intentions are 
translating into good outcomes. We must, therefore, do a better job of 
determining how well Head Start children across the country are being 
prepared for academic success once they enter school.
    This fall we are beginning implementation of the national 
assessment system of the congressionally mandated school-readiness 
indicators for all the 4-year and 5-year old children in Head Start. 
Children will complete these assessments upon entering and exiting Head 
Start. We have just completed eight national events to train and 
certify local staff in the conduct of this national assessment and 
reporting system. Across the country, an initial 181 ALAN staff were 
certified in the assessment procedures, trained in the data entry and 
are now in the process of training and certifying additional local 
staff.

The President's Proposal

    The Administration's efforts to improve the quality of Head Start 
services for all children continue with the President's proposal for 
reauthorization of Head Start. The President believes there must be a 
stronger focus on the educational program of Head Start and the 
measurement and assessment of outcomes which will move the Head Start 
program to a higher level of overall school readiness for low-income 
children.
    The President also believes even more must be done about the lack 
of adequate coordination between Head Start and state-administered 
programs which undermines the program's ability to provide high quality 
preschool services to as many children as possible throughout every 
State. Where coordination is not currently occurring, we are finding 
gaps and patchy areas in our services to the detriment of young 
children and their families. Nationwide, approximately 62,000 funded 
Head Start slots go empty each year. Lack of coordination often makes 
worse the troubling and avoidable under-enrollment problem in Head 
Start.
    Therefore, to strengthen the Head Start program, improve services 
to low-income children, and promote the coordination and integration of 
early care and education services, President Bush is asking Congress to 
include in the reauthorization of the Head Start Act a provision that 
will allow interested and qualified States to include Head Start in 
their overall plans for preschool services. As part of the solution, 
under the President's proposal, eligible States would have the 
opportunity to coordinate their preschool programs and child care 
programs with Head Start in exchange for meeting certain 
accountability, maintenance of effort and programmatic requirements. 
States wishing to participate must submit a State plan for approval to 
the Secretary of Health and Human Services, in consultation with the 
Secretary of Education, that addresses several fundamental issues.
    Each State must indicate in its plan how it would better coordinate 
Head Start with State administered preschool programs. In addition, the 
State plan must address how it will work to develop educational goals 
for all preschool children in the State and devise an accountability 
system to determine whether children are achieving the goals. States 
must describe in their plan how they will maintain the comprehensive 
range of services for children supported by Head Start funds, including 
the provision of social, nutrition, and health services, and guarantee 
that they will continue to provide at least as much financial support 
for state preschool programs and Head Start as they are currently 
providing.
    Let me be clear that the President is not proposing to block-grant 
Head Start funding to States. Only in those instances where eligible 
States apply for integrated preschool services and are approved by the 
Secretary of Health and Human Services will States be allowed to manage 
Head Start programs. Under the bill passed by the House, Head Start 
will continue to be managed as a Federal-to-local program in all but 
eight States and for all MAN programs. To be clear on this point, no 
State will be required to take advantage of this opportunity nor is 
anyone proposing that the Head Start program be turned over to States 
with no strings attached.
    The President's proposal does not allow States who may qualify for 
participation in a State option to do away with the comprehensive 
services currently available through Head Start. Indeed, States taking 
advantage of this option must make a commitment to maintain the 
comprehensive services currently available through Head Start for those 
children who, under the State plan, are supported with Head Start 
funds.
    The President's plan also makes clear that the Federal Government 
will not cease or relinquish its oversight responsibilities for the 
Head Start program. Under the President's proposal, even States who 
choose this option and who have their plans approved will still be 
accountable to the Federal government for their use of Head Start funds 
and for achieving positive outcomes for children. In cases where a 
State does not choose this option or where a State's plan is not 
approved, the Federal Government will continue to administer the Head 
Start program as a direct Federal-to-local program. I also want to 
mention that the President's plan would prohibit States from 
supplanting State preschool funds with Head Start dollars.
    Finally, our proposal would change the current set-aside for 
training and technical assistance to provide the Secretary with greater 
discretionary authority to allocate these resources each year in a 
manner that will maximize benefits to children and families. Our 
proposal would also provide flexibility in targeting funds to quality 
improvements. Training and technical assistance resources have gown 
considerably in recent years at a rate well above the growth of Head 
Start while, at the same time, grantees have had access to quality 
improvement funds that provide them additional resources for these 
activities. These changes will allow the Secretary to determine the 
appropriate level of funds for these activities taking into account all 
the other needs of the program and the children and families served. I 
would like to turn to AIAN Head Start and share some insights into 
services and operations.

AIAN HEAD START

    Head Start programs can be found throughout all parts of our 
country, from inner city neighborhoods where violence and substance 
abuse are a daily part of life to remote Alaskan villages where there 
are poor facilities, few jobs and limited access to education and 
training opportunities. Head Start programs are embedded in some of the 
most economically disadvantaged and geographically isolated areas of 
the country, including Indian reservations.
    The Head Start program has provided Head Start services to Indian 
Tribes since 1965 when the Department funded 43 grantees in 14 States. 
Since that time AIAN Head Start has grown many times and we are 
currently funding 165 grantees in 26 States to provide Head Start 
services to 23,837 children; 2,532 of whom are served in our Early Head 
Start program. There are 5,587 staff working in AIAN Head Start 
programs, 80 percent of whom are Native Americans; 26 percent of the 
families served by AIAN Head Start programs receive public assistance 
and 39 percent are single-parent households; 22 percent of AIAN Head 
Start parents are without a high school diploma and only 4 percent have 
college degrees. Head Start has long been designed as a program that 
can bring support and multiple opportunities to families and children.
    Head Start programs throughout the country promote school readiness 
by enhancing the social and cognitive development of children through 
the provision of educational, health, nutritional, social and other 
services that enable each child to develop and function at his or her 
highest potential. Head Start children receive comprehensive health 
services, including immunizations, physical and dental exams and 
treatment, and nutritional services. Over 80 percent of children in 
AIAN Head Start are immunized. In addition, at least 10 percent of the 
enrollment opportunities in each program must be made available to 
children with disabilities. Annually, MAN grantees report between 12 
and 13 percent of the enrolled children have diagnosed disabilities.
    Head Start engages parents in their children's learning and help 
them in making progress toward their educational, literacy and 
employment goals. The Head Start program also emphasizes significant 
involvement of parents in the administration of local Head Start 
programs. In fiscal year 2004, there will be increased efforts made to 
assure that Head Start programs are achieving their primary purpose of 
promoting school readiness--that all children, including all American 
Indian and Alaska Native children, leave Head Start with the cognitive, 
emotional and social skills they will need to be successful in school.
    This is particularly challenging to AIAN Head Start programs since 
the number of teachers with degrees is below the rest of the country 
[51 percent overall but only 29 percent for MAN Head Start], compounded 
by difficulties in recruitment and retention of qualified teaching 
staff in both Head Start and Early Head Start. For example, in the last 
Program Information Report, AIAN grantees report a turnover of 313 
teachers during the year, with 117 of those vacancies left unfilled for 
more than 3 months.
    Additionally, in terms of local program support for helping 
children achieve school readiness, 73 percent of the AIAN grantees 
reviewed between 2000 and now, have significant review findings in the 
critical areas of curriculum planning, implementation and 
individualizing for children's learning.
    Under the President's proposal, AIAN Head Start programs will 
continue to be funded directly by the Federal Government. Governed by 
relevant laws and regulations, each will design a program that works--
one that is sensitive to the culture and history of the families; one 
that respects the rich traditions of the tribe and that recognizes the 
uniqueness of language and customs. HHS understands that Indian 
children and families deserve special attention--that too many Indian 
families face the challenges of poverty, unemployment, substance abuse, 
and medical conditions such as diabetes, in significantly higher rates 
than in non-Indian populations.
    We have tried to respond to several unique needs by making 
available funding that permits many Indian programs to reach all or a 
substantial part of their Head Start eligible families. For example, we 
have issued regulations to implement the statutory provision which 
expands the ability of MAN grantees to serve children from over-income 
families.
    Over the past several years we have worked in partnership with the 
Indian Health Service agency addressing the many health and safety 
concerns of Head Start programs, concerns that are often exacerbated by 
environmental factors beyond the control of the local Head Start 
program or the community in which the program is located.
    In partnership with the Indian Health Service we are currently 
finalizing a Report to Congress on the overall status and condition of 
facilities occupied by ALAN Head Start programs. Let me share a few of 
the overall findings from that report:
    The on-site survey assessed 364 AIAN Head Start facilities--58 
percent of the total 624 American Indian centers.
    A small majority of these centers, 52 percent were identified as 
being in ``good'' condition, 40 percent were in moderate condition and 
8 percent were cited with major structural or other physical problems.
    Over 50 percent of these facilities were built prior to 1984; 
nearly one-third were constructed in 1990 or later and 21 percent were 
built during the 1980's.
    A majority of the 364 centers surveyed, 298 facilities or 82 
percent are owned by the AIAN Head Start grantees.
    We have invested over $25 million in the last 3 years for 
renovations and construction to improve classrooms and playgrounds as 
well as work and meeting space for AIAN Head Start programs. In 2003 
alone we have invested over $9 million in these facilities, and in 2004 
we anticipate funding an additional $4 million in pending requests for 
facility renovations and improvements.
    We are also investing in new Head Start buses for AIAN Programs at 
a rate that is twice the national average; because we recognize that 
many of these programs must drive children many miles on roads that are 
often unpaved. We share these investments with you not to say that our 
job is complete, but to acknowledge our awareness and intent to address 
the needs of AIAN Head Start. We recognize that we still have a long 
way to go to give our AIAN programs the fall support they will need to 
make both a short and long-term difference in children's lives. We are 
committed to doing that.
    We look forward to working with this committee and with the 
Congress to continue to address these and other challenges. Together we 
must do all we can to bring to fruition the goals and dreams of our 
Nation's first families.
    One of the reasons the Head Start program has remained strong over 
the course of nearly four decades is that it adapts to accommodate to 
the changing needs of children, families, and communities. We cannot 
afford to dissipate precious resources through overlapping or poorly 
coordinated Federal or local services. Most importantly, we cannot 
afford to have children slip through the gaps that patch-work methods 
often create, particularly when children with the greatest need for 
support continue to remain below national norms of school readiness. 
Children and families deserve the best support that we can provide.
    Head Start is part of our Nation's commitment to the big idea that 
no child should be left behind because of the circumstances of their 
families or communities. Hence, while recognizing the important 
contribution that Head Start has made over the past 38 years, we can, 
should and must do more, for we have not yet fulfilled the full promise 
of the boldest ideas that helped to create and sustain the Head Start 
program. The Administration is committed to strengthening the Head 
Start program and improving the coordination of services to benefit 
school readiness of children and the support services for families. 
Thank you, Mr. Chairman, for your commitment and dedication to the 
well-being of our Nation's children, and thank you, members of the 
committee, for your interest in hearing more about our proposal to make 
Head Start stronger, and about some of the specific efforts that impact 
AIAN programs. I look forward to continuing our dialog as we work 
together on the reauthorization of the Head Start program.
[GRAPHIC] [TIFF OMITTED] T9672.001

[GRAPHIC] [TIFF OMITTED] T9672.002

[GRAPHIC] [TIFF OMITTED] T9672.003

[GRAPHIC] [TIFF OMITTED] T9672.004

[GRAPHIC] [TIFF OMITTED] T9672.005

[GRAPHIC] [TIFF OMITTED] T9672.006

[GRAPHIC] [TIFF OMITTED] T9672.007

[GRAPHIC] [TIFF OMITTED] T9672.008

[GRAPHIC] [TIFF OMITTED] T9672.009

[GRAPHIC] [TIFF OMITTED] T9672.010

[GRAPHIC] [TIFF OMITTED] T9672.011

[GRAPHIC] [TIFF OMITTED] T9672.012

[GRAPHIC] [TIFF OMITTED] T9672.013

[GRAPHIC] [TIFF OMITTED] T9672.014

[GRAPHIC] [TIFF OMITTED] T9672.015

[GRAPHIC] [TIFF OMITTED] T9672.016

[GRAPHIC] [TIFF OMITTED] T9672.017

[GRAPHIC] [TIFF OMITTED] T9672.018

[GRAPHIC] [TIFF OMITTED] T9672.019

[GRAPHIC] [TIFF OMITTED] T9672.020

[GRAPHIC] [TIFF OMITTED] T9672.021

[GRAPHIC] [TIFF OMITTED] T9672.022

[GRAPHIC] [TIFF OMITTED] T9672.023

[GRAPHIC] [TIFF OMITTED] T9672.024

[GRAPHIC] [TIFF OMITTED] T9672.025

[GRAPHIC] [TIFF OMITTED] T9672.026

[GRAPHIC] [TIFF OMITTED] T9672.027

[GRAPHIC] [TIFF OMITTED] T9672.028

[GRAPHIC] [TIFF OMITTED] T9672.029

[GRAPHIC] [TIFF OMITTED] T9672.030

[GRAPHIC] [TIFF OMITTED] T9672.031

[GRAPHIC] [TIFF OMITTED] T9672.032

[GRAPHIC] [TIFF OMITTED] T9672.033

[GRAPHIC] [TIFF OMITTED] T9672.034

[GRAPHIC] [TIFF OMITTED] T9672.035

[GRAPHIC] [TIFF OMITTED] T9672.036

[GRAPHIC] [TIFF OMITTED] T9672.037

[GRAPHIC] [TIFF OMITTED] T9672.038

[GRAPHIC] [TIFF OMITTED] T9672.039

[GRAPHIC] [TIFF OMITTED] T9672.040

[GRAPHIC] [TIFF OMITTED] T9672.041

[GRAPHIC] [TIFF OMITTED] T9672.042

[GRAPHIC] [TIFF OMITTED] T9672.043

[GRAPHIC] [TIFF OMITTED] T9672.044

[GRAPHIC] [TIFF OMITTED] T9672.045

[GRAPHIC] [TIFF OMITTED] T9672.046

[GRAPHIC] [TIFF OMITTED] T9672.047

[GRAPHIC] [TIFF OMITTED] T9672.048

[GRAPHIC] [TIFF OMITTED] T9672.049

[GRAPHIC] [TIFF OMITTED] T9672.050

[GRAPHIC] [TIFF OMITTED] T9672.051

[GRAPHIC] [TIFF OMITTED] T9672.052

[GRAPHIC] [TIFF OMITTED] T9672.053

[GRAPHIC] [TIFF OMITTED] T9672.054

[GRAPHIC] [TIFF OMITTED] T9672.055

[GRAPHIC] [TIFF OMITTED] T9672.056

[GRAPHIC] [TIFF OMITTED] T9672.057

[GRAPHIC] [TIFF OMITTED] T9672.058

[GRAPHIC] [TIFF OMITTED] T9672.059

[GRAPHIC] [TIFF OMITTED] T9672.060

[GRAPHIC] [TIFF OMITTED] T9672.061

[GRAPHIC] [TIFF OMITTED] T9672.062

[GRAPHIC] [TIFF OMITTED] T9672.063

[GRAPHIC] [TIFF OMITTED] T9672.064

[GRAPHIC] [TIFF OMITTED] T9672.065

[GRAPHIC] [TIFF OMITTED] T9672.066

[GRAPHIC] [TIFF OMITTED] T9672.067

[GRAPHIC] [TIFF OMITTED] T9672.068

[GRAPHIC] [TIFF OMITTED] T9672.069

[GRAPHIC] [TIFF OMITTED] T9672.070

[GRAPHIC] [TIFF OMITTED] T9672.071

[GRAPHIC] [TIFF OMITTED] T9672.072

[GRAPHIC] [TIFF OMITTED] T9672.073

[GRAPHIC] [TIFF OMITTED] T9672.074

[GRAPHIC] [TIFF OMITTED] T9672.075

[GRAPHIC] [TIFF OMITTED] T9672.076

[GRAPHIC] [TIFF OMITTED] T9672.077

[GRAPHIC] [TIFF OMITTED] T9672.078

[GRAPHIC] [TIFF OMITTED] T9672.079

[GRAPHIC] [TIFF OMITTED] T9672.080

[GRAPHIC] [TIFF OMITTED] T9672.081

[GRAPHIC] [TIFF OMITTED] T9672.082

[GRAPHIC] [TIFF OMITTED] T9672.083

[GRAPHIC] [TIFF OMITTED] T9672.084

[GRAPHIC] [TIFF OMITTED] T9672.085

[GRAPHIC] [TIFF OMITTED] T9672.086

[GRAPHIC] [TIFF OMITTED] T9672.087

[GRAPHIC] [TIFF OMITTED] T9672.088

[GRAPHIC] [TIFF OMITTED] T9672.089

[GRAPHIC] [TIFF OMITTED] T9672.090

[GRAPHIC] [TIFF OMITTED] T9672.091

[GRAPHIC] [TIFF OMITTED] T9672.092

[GRAPHIC] [TIFF OMITTED] T9672.093

[GRAPHIC] [TIFF OMITTED] T9672.094

[GRAPHIC] [TIFF OMITTED] T9672.095

[GRAPHIC] [TIFF OMITTED] T9672.096

[GRAPHIC] [TIFF OMITTED] T9672.097

[GRAPHIC] [TIFF OMITTED] T9672.098

[GRAPHIC] [TIFF OMITTED] T9672.099

[GRAPHIC] [TIFF OMITTED] T9672.100

[GRAPHIC] [TIFF OMITTED] T9672.101

[GRAPHIC] [TIFF OMITTED] T9672.102

[GRAPHIC] [TIFF OMITTED] T9672.103

[GRAPHIC] [TIFF OMITTED] T9672.104

[GRAPHIC] [TIFF OMITTED] T9672.105


</pre></body></html>
